<html>
<title> - NOMINATION OF JONATHAN S. ADELSTEIN TO BE A MEMBER OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 107-1045]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1045



                  NOMINATION OF JONATHAN S. ADELSTEIN
                         TO BE A MEMBER OF THE
                   FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



87-750              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on July 16, 2002....................................     1
Statement of Senator Brownback...................................    22
    Article from Psychiatric Times: ``TV Violence and 
      Brainmapping in 
      Children,'' October, 2001..................................    24
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     2
Statement of Senator McCain......................................     3
    Prepared statement...........................................     3

                               Witnesses

Adelstein, Jonathan S., nominee to be a member of the Federal 
  Communications Commission......................................     7
    Prepared statement...........................................     9
    Biographical information.....................................    10
Statement of Hon. Thomas Daschle, U.S. Senator from South Dakota.     4
    Letter from Governor Bill Janklow............................     6
Statement of Hon. Tim Johnson, U.S. Senator from South Dakota....     4

                                Appendix

Responses of Jonathan S. Adelstein to written questions submitted 
  by:
    Hon. Daniel K. Inouye........................................    35
    Hon. Gordon Smith............................................    36

 
                  NOMINATION OF JONATHAN S. ADELSTEIN
                         TO BE A MEMBER OF THE
                   FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                         TUESDAY, JULY 16, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 

SR-253, Russell Senate Office Building, Hon. Daniel K. Inouye, 
presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. This afternoon, the Committee will consider 
the nomination of Jonathan Adelstein to be Commissioner of the 
Federal Communications Commission. Mr. Adelstein currently 
serves as an advisor to our esteemed Senate Majority Leader, 
Tom Daschle.
    I'd like to take this moment to welcome Mr. Adelstein and 
ask him to introduce to the Committee his family members and 
friends who have accompanied him today.
    Mr. Adelstein. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing so promptly.
    First, I'd like to introduce my beloved wife Karen, who has 
supported me throughout this process and made it so much easier 
for me to get here today. Next, my son, Adam, who represents 
the future we are truly dedicated to improving. My father, Stan 
Adelstein, is here. Like myself, he is a public servant. He has 
been elected to the South Dakota State House of 
Representatives--as a Republican, I might add. In our family, 
bipartisanship starts at home.
    [Laughter.]
    Mr. Adelstein. But what a person stands for is really not 
about labels. It's about values. My father and I share basic 
values about our country and our State. I would be proud if it 
were thought that I shared the integrity that he displays in 
everything he does. Nobody could be a better father, and nobody 
could be a better citizen of our State. It is well-known how 
much he's done for our State. I'm so proud to call him my dad, 
and I'm so happy that he's here with us today.
    I have one of my brothers here, as well, Lieutenant Colonel 
Dan Adelstein. My other brother, Jim, is in Los Angeles, and 
couldn't be here today. Dan is the third generation of our 
family to serve as a U.S. Army officer. He was at the Pentagon 
on September 11th, very near where the plane attack occurred. 
We are all the more grateful for his presence here today and 
for the service he gives to our country. Thank you, Dan.
    I'd like to introduce Karen's parents, Arnie and Anita 
Brenner. Everybody should be so fortunate to have such 
wonderful in-laws. Arnie has had a distinguished career in the 
wireless telecommunications industry, and we are very proud of 
him. I want to thank Karen's brother, Ira Brenner, and his 
wife, Jennfer, and daughter, Everleigh, for also joining us. I 
also want to thank them for not bringing their newborn son, 
Boulder. I love him, but I think at any moment he may have made 
it difficult to proceed with this hearing.
    Senator Inouye. I thank you very much, and I'd like to 
welcome the members of the family and congratulate them. The 
rest of my statement will be made part of the record.
    [The prepared statement of Senator Inouye follows:]

             Prepared Statement of Hon. Daniel K. Inouye, 
                        U.S. Senator from Hawaii

    This morning the Committee will consider the nomination of Jonathan 
Adelstein to be a Commissioner of the Federal Communications 
Commission. Mr. Adelstein comes highly recommended, as he currently 
serves as an advisor to, and has been recommended by, our esteemed 
Senate Majority Leader, Tom Daschle. Mr. Adelstein has noted that he is 
aware of the enormous responsibilities that awaits him should he be 
confirmed, and that he is prepared for the challenge. He will be 
questioned this morning about the critical issues presently confronting 
the FCC and the communications industries, which, indeed, are many. I 
would like to take this moment to welcome him, and to allow him to 
recognize family members and friends that have accompanied him this 
morning.
    This is an important period in the evolution of the communications 
industry. There are a number of critical issues that are presently 
pending before the FCC that must be successfully resolved if we are to 
make the progress that we are seeking in the major communications 
sectors. These issues include telecommunications competition in the 
last mile, spectrum management, and the digital television transition. 
Additionally, the telecommunications industry is currently in the midst 
of a very turbulent economic period, as many companies have been 
affected by the overall downturn in the financial markets, especially 
those on the competitive side. Clearly this situation has implications 
for preserving competition in the telecommunications market. In this 
environment, it is imperative that the FCC provide effective 
leadership, and in a manner that maintains fairness and competition in 
the marketplace and improved and affordable services for consumers.
    With respect to my home State of Hawaii, a policy of great 
importance is rate integration and geographic averaging. This policy 
was first adopted by the FCC in order to ensure that the so called 
``offshore points,'' Alaska, Hawaii, Puerto Rico, and the Virgin 
Islands were integrated into the telecommunications rate and service 
structure prevailing on the mainland. Previously, these points were 
deemed ``international'' points for purposes of telephone 
communications. Long distance rates were 3 times that of Mainland 
levels. In the 1996 Act, Congress in adding section 254(g), codified 
these policies and expanded their reach.
    Even though the long distance market was deemed competitive, 
Congress took this action to ensure that all Americans, even those in 
remote areas, receive the benefits accorded by a competitive market. It 
is important that the FCC continues to sustain these policies in order 
to ensure that residents of Hawaii have affordable telecommunications 
service.
    Lastly, Hawaii has long struggled to obtain direct broadcast 
satellite (dbs) service comparable to that available on the Mainland. 
Today, one company, pursuant to the commission's mandate, provides DBS 
service in Hawaii that roughly approximates that available in the 
mainland states. The other DBS provider does not, and has resisted 
doing so. For these reasons, it is essential that the commission 
enforces its long standing policy, as well as its recently adopted 
rules, in order to eliminate any misunderstanding as to whether DBS 
services are required to be offered to Hawaii and Alaska in a manner 
that is equivalent to the services provided in the mainland states. 
This is vitally important, due to the fact that DBS not only promises 
video programming and competition to cable, but also holds the promise 
of high speed data services.
    With that said, I look forward to working with you, Mr. Adelstein, 
in the months ahead.

    Senator Inouye. May I call upon Mr. McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Well, thank you, Mr. Chairman. I'd like to 
welcome Jonathan Adelstein, along with his family members and 
guests. I think Mr. Adelstein will play an important role in 
guiding American telecommunications policy in the digital age, 
and I think he's fully qualified for performing those duties 
despite the years of service that he spent with Senator 
Daschle.
    [Laughter.]
    Senator McCain. I had the pleasure of meeting with Mr. 
Adelstein recently, and found him to be thoughtful and 
committed to serving consumer interests. I commend him on his 
career in public service, and I appreciate his willingness to 
undertake the tremendous responsibility of serving as an FCC 
Commissioner.
    Mr. Chairman, I only have one additional comment. I think 
we recognize that there are enormous challenges facing the 
telecommunications industry in America today. I can think of 
nobody that is probably more important to the future of the 
economy of this Nation than the Federal Communications 
Commission. I think it is ably led by Chairman Powell, but I 
know that Mr. Adelstein understands how very critical his 
position will be. I think he brings the right experience and 
credentials to this job. But this is not an obscure agency. 
This is not a task that can lend itself to mediocrity.
    And so, therefore, Mr. Adelstein, I'm glad that you are 
willing to serve this Nation, as you have done ably, as members 
of your family have in the past. I congratulate you and your 
family. And there may be some days in the years ahead where 
you'll wish that we had turned you down.
    [Laughter.]
    Senator McCain. I thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]

              Prepared Statement of Senator John McCain. 
                       U.S. Senator from Arizona

    Mr. Chairman, I would like to welcome Jonathan Adelstein, along 
with his family members and guests. If confirmed, he will play an 
important role in guiding American telecommunications policy into the 
digital age.
    I congratulate Mr. Adelstein on his nomination. He has a 
distinguished career as a staff member in the U.S. Senate, including 7 
years with Senate Majority Leader Tom Daschle. I had the pleasure of 
meeting him recently, and found him to be thoughtful and committed to 
serving consumer interests. I commend him on his career in public 
service, and I appreciate his willingness to undertake the tremendous 
responsibility of serving as an FCC Commissioner.
    Mr. Adelstein, your experience in government will prove important 
as the FCC continues to confront the challenges that face this critical 
sector of our Nation's economy. Several large communications companies 
have been at the center of recent events that have resulted in a crisis 
in confidence in corporate America. I hope that, if confirmed, you will 
dedicate your efforts to implementing sound public policy that serves 
the interest of consumers during this era of industry uncertainty.

    Senator Inouye. And now it's my privilege to call upon my 
leader, Senator Tom Daschle.

               STATEMENT OF HON. THOMAS DASCHLE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Daschle. Thank you very much, Mr. Chairman and 
Senator McCain, for your kind words. Well, at least in your 
case, Mr. Chairman.
    [Laughter.]
    Senator Daschle. I am grateful to have the opportunity to 
appear before you, and I have a formal statement that, with 
your consent, I would like inserted into the record.
    Senator Inouye. Without objection, so ordered.
    [The prepared statement of Senator Daschle was not 
available at press time.]
    Senator Daschle. Let me just say that it is a great day for 
our country and certainly a proud moment for me. It is 
especially an honor that so many of the Adelstein family has 
come for this special occasion. But I must say, in all my time 
in public life, I have never presented a nominee with greater 
confidence and with greater enthusiasm. Perhaps that's because 
I know Jonathan as well as I do.
    He's worked here in the Senate for 15 years. He has worked 
in many capacities. I know him as a fast learner. I know him as 
a fair and balanced analyst. I know him as someone with wise 
intellectual capacity. I know him as someone who is committed 
to rural America. I know him as someone who is ready to respond 
to the challenges that Senator McCain so eloquently just 
described.
    We have a big challenge at the FCC, and I know of no one 
who can do it better than Jonathan Adelstein. So it's a 
pleasure for me to be at his side on this special occasion, on 
this important day.
    I thank the Committee, and I thank you, Mr. Chairman, for 
your willingness to hold this hearing so that we can move to 
meet these challenges in the near future.
    Senator Inouye. I thank you very much, Mr. Leader.
    Now may I call upon the illustrious Senator, Senator Tim 
Johnson.

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Well, thank you, Mr. Chairman. And let me 
begin by thanking Chairman Hollings for calling this important 
hearing on the nomination of Jonathan Adelstein to be a member 
of the Federal Communications Commission. I want to thank you 
and Senator Hollings, Senator McCain, for participating in this 
overdue hearing today.
    Mr. Chairman, I'm pleased to be here today before the 
Commerce Committee to help introduce a fellow South Dakotan 
who's been selected by Senator Daschle and nominated by 
President Bush to be our next FCC Commissioner.
    This nomination is long overdue. Mr. Adelstein's selection 
was announced on February 8th of 2002, but his nomination was 
not sent to the Senate until July 10th. While I'm disappointed 
in the delay, which was caused by extraneous circumstances, 
it's important now that we focus on the need for speedy 
confirmation of this highly qualified nominee.
    The FCC is urgently in need of a Commissioner who knows 
firsthand the telecommunications needs of rural America. 
Advances in telecommunications technology is changing at an 
incredible rate, and I'm concerned that in an effort by the FCC 
to address issues related to these advances, the Commission 
often does not fully realize or take into account the impact 
these decisions have on rural telecommunications providers and 
consumers. Too often I hear from telecommunications leaders in 
South Dakota that many FCC decisions adversely impact their 
ability to bring telecommunications advances to rural 
customers.
    That said, I'm confident that Jonathan will be a strong 
voice for rural America and will work with the other 
Commissioners to determine telecommunications policy in a way 
that encourages and not hinders telecommunications advances in 
all areas of America, rural and urban alike.
    Jonathan is a native of Rapid City, South Dakota. He 
graduated from high school at Phillips Academy in Andover, 
Massachusetts, in 1980. He went on to earn both undergraduate 
and graduate degrees from Stanford University. Jonathan 
completed his education at the Kennedy School of Government at 
Harvard.
    Jonathan began his long and distinguished career in public 
service right here in this chamber. He came to the Senate in 
1987 as a legislative assistant to former Senator Don Riegle. 
After serving in Senator Riegle's office, Jonathan worked for 
former Senator David Pryor, then Chairman of the Senate Aging 
Committee. Jonathan worked on finance matters for the Aging 
Committee and, in 1985, began working as a legislative 
assistant for my good friend and colleague, Senator Daschle, 
covering a wide range of issues, including telecommunications, 
banking, transportation, and Social Security. After 15 years in 
Congress, I know it is especially gratifying to staff 
colleagues that one of their own has reached this day.
    I'm particularly grateful to Jonathan for his efforts on 
behalf of our State of South Dakota. His expertise, 
determination, and understanding of the process have enabled 
both Senator Daschle and me to further our goals in 
telecommunications policy. All those that work with Jonathan 
praise his pragmatism and his ability to maintain an open mind 
as well as his ability work in a bipartisan fashion. I 
personally bear witness to his dedication and dependability, 
and it is these traits, along with his deep knowledge of the 
Congress, which will serve him well in his new capacity.
    Again, Mr. Chairman, I thank you for holding this hearing 
today. I look forward to working with you and my colleagues to 
move this nomination to the floor for an expeditious Senate 
confirmation.
    Thank you.
    Senator Inouye. I thank you very much, Senator.
    And now may I call upon the man of the hour, Mr. Jonathan 
Adelstein.
    Senator Daschle. Mr. Chairman, if I could ask unanimous 
consent to insert a letter by the Governor of South Dakota, 
Governor Bill Janklow, in support of the nominee in the record 
at this point.
    Senator Inouye. Without objection, so ordered.
    Senator Daschle. Thank you, Mr. Chairman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7750.001
    
    Senator McCain. Could we say, we know that the other 
Senators have important duties, and we thank you for appearing 
on behalf of this witness.
    Senator Inouye. Thank you.

       STATEMENT OF JONATHAN S. ADELSTEIN, NOMINEE TO BE 
       A MEMBER OF THE FEDERAL COMMUNICATIONS COMMISSION

    Mr. Adelstein. Mr. Chairman and Members of the Committee, 
it's been an honor to work with you and your staff over the 
years. After 15 years in the Senate, it's truly humbling to 
appear here before you as the nominee to serve on one of your 
most important creations, the Federal Communications 
Commission.
    First, I want to thank Senator Daschle and Senator Johnson 
for their generous introduction. I'm deeply grateful to both of 
them, and especially to Senator Daschle for the wisdom that 
he's shared with me over the years; for the opportunities he 
has given me to learn and to grow, and for the display of 
confidence he's shown in me by recommending me for this 
position.
    Senator Daschle, working for you has meant the world to me. 
There's nobody who could be a better mentor, role model, and 
friend. As a South Dakotan, I think I have two of the best 
Senators in the U.S. Senate, with all due respect to the 
current Members here.
    [Laughter.]
    Mr. Adelstein. South Dakota is blessed with an outstanding 
delegation--the best South Dakota has ever had.
    And thank you, Mr. Chairman, again, for holding this 
hearing so promptly. I'd also like to thank the Chairman of the 
Full Committee, Senator Hollings, who stopped by to say hello 
before he had to do some business at the Appropriations 
Committee, for his leadership in getting this process moving so 
promptly. His supportive and gracious comments are deeply 
appreciated.
    Senator McCain, I appreciate your generous comments, as 
well, and I enjoyed having the chance to talk to you about 
critical telecommunications issues. I look forward to a 
productive relationship with you, if confirmed.
    I'm also grateful to President Bush for sending my 
nomination forward, and also to Governor Bill Janklow for his 
stalwart support throughout this entire process.
    Finally, I'd like to say a word to my fellow Members of the 
Senate staff, the crowd who's sitting behind you on the dais, 
where I sat for so many years myself. Without the work that 
we've done together, without the help of you, my friends, my 
colleagues, and my mentors, I would not be prepared to pursue 
this opportunity. So thank you very much.
    Senator McCain. That's enough. They'll be asking for a 
raise.
    [Laughter.]
    Mr. Adelstein. OK, that's enough. That's it, staff, sorry.
    [Laughter.]
    Mr Adelstein. I can't go on. I know we drafted this 
statement together, but I can't complete it. I'm just going to 
have to skip over it.
    [Laughter.]
    Mr. Adelstein.  I also want you all to know about the 
family that I've come from. It's an extraordinary family, and 
I'm very proud of them. You've met some of them here today, but 
I want to step back a little in time.
    I want to go back to my great-grandmother, who homesteaded 
near the Badlands of South Dakota. I wonder what she would 
think if she could be here today. Her son, my grandfather, 
became an engineer and built bridges for the Allies in France 
under fire during World War I. After our victory, he returned 
to start a construction company in our State that grew to 
become one of its largest employers. My father took over that 
business, and he made it thrive before he moved on to his own 
career in public service, in which he has distinguished 
himself. I'm so proud of him.
    The motto of our family company carries with me today: 
``Builders of better bridges and highways.'' Mr. Chairman if 
confirmed to the FCC, I want to make that motto my own.
    Just as roads and bridges provide physical links, advanced 
communications and information services can also bring people 
together. They not only can conquer physical distances, but 
also challenge the less tangible barriers that separate us. 
They help weave together the very fabric of our society. They 
can make the best educational and commercial opportunities 
available to all Americans regardless of geography or income. 
This is the promise of modern communications. These are the 
links I want to help build.
    My family's presence on the Great Plains has endured for 
four generations. I feel duty-bound by that heritage to assure, 
if confirmed, that the benefits of advanced communications 
reach all Americans, including those who live in and sustain 
our Nation's rural areas. This commitment is embodied in the 
Telecommunications Act of 1996.
    America, of course, is not just a place, but a unique set 
of ideas and aspirations. Broadband represents the most 
powerful means we have yet invented to communicate the best 
that America has always offered the world, the promise of 
freedom and equality of opportunity. Greater bandwidth and more 
competition will foster more freedom and more opportunity--
better bridges and highways between people.
    To promote those ideals and to help combat the enemies of 
freedom, America must retain its leadership in communications. 
Congress, I believe, has established a legislative framework 
designed to keep our network the most advanced, most 
accessible, and most reliable in the world. But the continued 
vitality of the communications sector, as we've discussed here 
today, and our entire economy, face serious challenges.
    If confirmed, I commit myself to working with this 
Committee, with Congress, with the Chairman and members of the 
Commission, with consumers and all stakeholders to implement a 
sensible, bipartisan approach to maintaining America's 
leadership. Guided by the policies Congress set forth in its 
communications laws, if confirmed, I will work to enhance 
competition, promote universal access, and manage the public 
spectrum efficiently. In light of September 11th, if confirmed 
I will also make it my highest priority to address all of the 
communications-related needs of national security and public 
safety.
    Mr. Chairman, my family, my education, and my 15 years of 
service to this institution have, I believe, prepared me for 
that task. Thank you for holding this hearing today. Senator 
McCain, thank you for being here and for your support. I would 
now welcome any questions that you might have.
    [The prepared statement and biographical information of Mr. 
Adelstein follow:]

              PREPARED STATEMENT OF JONATHAN S. ADELSTEIN

    Mr. Chairman, and Members of the Committee, it has been an honor to 
work with you and your staff over the years. After 15 years in the 
Senate, it is humbling to appear before you as a nominee to serve on 
one of Congress's most important creations: the Federal Communications 
Commission.
    I thank Senator Daschle and Senator Johnson for their generous 
introduction. I am deeply grateful to Senator Daschle for the wisdom he 
has shared with me over the years, and for his display of confidence in 
recommending me for this position.
    Thank you, Mr. Chairman, and Chairman Hollings, for scheduling this 
hearing so promptly.
    I am grateful to President Bush for nominating me, and Governor 
Bill Janklow of South Dakota for his stalwart support.
    Finally, to my fellow members of the Senate staff. Without the work 
we have done together, and the help of my friends, colleagues and 
mentors, I could not be prepared to pursue this opportunity.
    I want you all to know that I come from an extraordinary family of 
which I am very proud.
    Stepping back, my great-grandmother homesteaded near the Badlands 
of South Dakota. Her son, my grandfather, became an engineer and built 
bridges for the Allies in France during World War I. After our victory, 
he returned to start a construction company that grew to become one of 
the largest employers in the State. My father took over that business 
and made it thrive before moving on to his own career in public 
service.
    The motto of our family company carries with me today: ``Builders 
of Better Bridges and Highways.'' Mr. Chairman, if confirmed to the 
FCC, I want to make that motto my own. Just as roads and bridges 
provide physical links, advanced communications and information 
services bring people together. They can actually conquer physical 
distances, as well as challenge the less tangible barriers that 
separate us. They have the potential to weave together the fabric of 
our society. They make the best educational and commercial 
opportunities available to all Americans, regardless of income or 
geography. This is the promise of modern communications.
    My own family's presence on the Great Plains has endured for four 
generations. I feel honored by that heritage, and duty-bound to ensure 
the benefits of advanced communications reach all Americans--including 
those who sustain our Nation's rural areas--a commitment enshrined in 
the Telecommunications Act of 1996.
    America, of course, is not just a place, but a unique set of ideas 
and aspirations. Broadband represents the most powerful means we have 
yet invented to communicate the best that America has always offered 
the world: the promise of freedom and equality. Greater bandwidth and 
more competition will foster more freedom and more opportunity--better 
bridges and highways between people.
    To best promote those ideals--and to help combat the enemies of 
freedom--America must retain its leadership in communications. Congress 
has established a legislative framework designed to ensure our network 
remains the most advanced, most accessible and most reliable in the 
world. But the continued vitality of the communications sector, and our 
economy as a whole, face serious challenges.
    If confirmed, I commit myself to working with this Committee, with 
Congress, with the Chairman and members of the Commission, and with all 
stakeholders to implement a sensible, bipartisan approach to 
maintaining America's leadership. Guided by the policies Congress set 
forth in its communications laws, if confirmed I will work to enhance 
competition, promote universal access and efficiently manage the public 
spectrum. In light of September 11th, I will also make it my highest 
priority to address all the communications-related needs of national 
security and public safety.
    My family, my education and my 15 years of service to this 
institution have, I believe, prepared me for that task.
    Mr. Chairman, thank you for your consideration. I welcome any 
questions Members of the Committee may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Jonathan Steven Adelstein (Jon).
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of nomination: July 10, 2002.
    4. Address: Home: Information not released to the public. Office: 
Senator Tom Daschle, Washington, DC 20510.
    5. Date and place of birth: August 28, 1962, Rapid City, South 
Dakota.
    6. Marital Status: Married to the former Karen Gail Brenner.
    7. Name and age of child: Adam Fortis Adelstein, 1.
    8. Education: Harvard University, Kennedy School of Government, 
1986-1987; Stanford University, 1985-1986, M.A., History, 1986; 
Stanford University, 1982-1985, B.A., Political Science, 1985; Lewis & 
Clark College, 1980-1982; Phillips Academy, Andover, 1977-1980, High 
School Diploma, 1980.
    9. Employment Record: 1995-present: Senate Majority Leader Tom 
Daschle, Legislative Assistant; 1989-1995: Chairman David Pryor, Senate 
Special Committee on Aging, Professional Staff Member, also served as 
special liaison to Senator Harry Reid; 1987-1989 Senator Donald W. 
Riegle, Jr., Legislative Assistant; 1987 Senator Richard C. Shelby, 
Intern; 1987 Harvard College, Department of History, Teaching Fellow; 
1986 Stanford Graduate School of Business, Communications Consultant; 
1985-1986 Stanford University, Department of History, Teaching 
Assistant.
    10. Government experience: U.S. Senate staff for 15 years, 1987-
present. In addition, I was appointed to the Clinton/Gore Presidential 
Transition Team in 1992 as a liaison to the Department of Health and 
Human Services.
    11. Business relationships: None other than those listed above.
    12. Memberships: Member, National Academy of Social Insurance, 
Washington, D.C.
    13. Political affiliations and activities: (a) None. (b) I took 
leaves of absences from the U.S. Senate to volunteer on the Senate 
campaigns of Senator Harry Reid from October-November 1992, and on the 
Senate campaign of then-U.S. Rep. Tim Johnson from October-November 
1996. (c) Tim Johnson for Senate, $1000, (2001); Tim Johnson for 
Senate, $1500, (1996); Democratic National Committee, $1000, (2000); 
Voters for Choice, $850 total, (1996 and 1998); Rick Weiland for 
Congress, $1000, (1996).
    14. Honors and awards: U.S. Senate Service Award, 1999; Inducted 
into the National Academy of Social Insurance, 1999; Graduated with 
Distinction (highest honors), Stanford University; Phi Kappa Phi 
National Honor Society; Pi Sigma Alpha Political Science Honor Society; 
Outstanding Leadership Award, National Association for Music Therapy, 
1991.
    15. Published writings: ``Disabled Yet Denied: Bureaucratic 
Injustice in the Disability Determination System'' Journal of 
Disability Policy Studies, Volume 1, No. 4, Winter 1990, pages 57-80.
    16. Speeches: I have made a number of informal presentations, 
primarily on panels with other Congressional staff, in my capacity as a 
U.S. Senate aide. They have been extemporaneous remarks for which there 
is no written text.
    17. Selection: (a) I believe I was nominated by the President, upon 
the recommendation of Senator Daschle, primarily because of my 
experience in telecommunications policy and related fields, and also 
because my career in public service demonstrates my ability to work in 
a bipartisan fashion with the legislative and executive branches of 
government, with independent regulatory agencies, and with the many 
constituencies affected by Federal policy. (b) For the past 15 years, I 
have served in a number of senior staff policy positions in the U.S. 
Senate. That diverse and extensive experience culminated in Senate 
Majority Leader Tom Daschle's decision to make me his lead advisor on 
telecommunications issues and in several other key policy areas. In the 
many different capacities in which I served in the government, I have 
attempted to ascertain and promote the public interest by weighing the 
substantive policy arguments presented by an array of Members of 
Congress and their personal and committee staffs, powerful and often 
intensely competitive industries, public interest groups, Federal 
agencies, the White House and, perhaps most importantly, constituents 
with a direct stake in the outcome of Federal policy debates.
    I have a long and proven record of working with Senators on both 
sides of the aisle to promote the public interest by developing 
legislation, influencing independent and executive agencies, conducting 
hearings and investigations and completing casework. This experience is 
ideally suited to developing the judgment required to ascertain 
Congressional intent and the public interest in complex regulatory 
proceedings, which often involve powerful opposing interests.
    I have assisted a number of Senators in overseeing some of the 
largest and most complex Federal programs, as well as a number of 
regulatory agencies such as the FCC. This responsibility has provided 
me with an excellent background on the inner workings of the Federal 
Government and its impact on the many stakeholders affected by its 
actions. As a Senate staffer, I enjoyed access to the best information 
from leading experts in the field, interests with a stake in the 
outcome, members of the public with views on the issues and other 
players in Congress with differing policy and political agendas. Every 
day I have served the Senate has enriched my education in Federal 
policymaking. This has prepared me, should I be confirmed, to be an 
independent, impartial arbiter able to implement the statutes crafted 
by Congress in an accurate and equitable manner which serves the public 
interest.
    In my service to Senator Daschle, I have worked extensively in 
every field of telecommunication policy overseen by the FCC, including 
common carrier, wireless, satellite and mass media issues. As Senate 
Majority and Democratic Leader, Senator Daschle has played a key role 
in every telecommunications debate to come before Congress. I have 
assisted him in taking a leadership role on a number of significant 
legislative and regulatory initiatives, including speeding the 
deployment of broadband to all Americans, including those who reside in 
rural areas. Our many bipartisan successes have prepared me to enhance 
communications and cooperation between Congress and the FCC.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. I have disposed of all 
personal assets which could involve potential conflicts of interest in 
the position to which I have been nominated. My wife holds certain 
assets that could raise conflict of interest issues, and she intends to 
sell or dispose of all of them prior to or upon my confirmation, 
consistent with an ethics agreement I am prepared to sign.
    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. As an employee of 
the U.S. Senate for more than the past 10 years, I have regularly 
engaged in legislative and policy activities on behalf of the Senators 
and the Committee for whom I have worked. I have not engaged in any 
such efforts on behalf of myself or any external agent or interest.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements). I will 
resolve all potential conflicts of interest in a manner consistent with 
applicable laws and ethics rules. Specifically, I have already disposed 
of all personal assets that could involve potential conflicts of 
interest; my wife intends to divest or dispose of all assets of 
companies that engage in any business with issues before the FCC. I am 
consulting with FCC ethics officials and will follow their guidance 
regarding any possible conflicts that might arise from my wife's 
assets.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes. To the 
extent I can control the outcome if confirmed, I strongly believe that 
Federal agencies should always comply with congressional deadlines if 
at all humanly possible.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulation issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. If 
confirmed, I will consider it my first obligation to ensure that any 
regulations issued comport completely with the letter and spirit of the 
law. I will maintain regular meetings, correspondence and telephone 
contact with Members of Congress and their staff, consistent with the 
agency's procedural rules, to solicit their views and keep an open 
dialog on all key issues.
    5. Describe your department/agency's current mission, major 
programs and major operational objectives. The FCC is an independent 
regulatory agency created by the Communications Act of 1934 to oversee 
emerging communications technologies by wire and radio. Its mission has 
been expanded by subsequent amendments to include television, satellite 
and cable. It is charged with carrying out the responsibilities 
conferred upon it by Congress to help ``all the people of the United 
States'' benefit from the best telecommunications system possible, and 
to do so at reasonable rates.
    In short, the FCC regulates radio and television broadcasters, wire 
common carriers, wireless and satellite communications providers, as 
well as multichannel video programmers, and helps coordinate 
international and satellite policies. The FCC oversees the 
administration of universal service support programs, including high-
cost and lifeline support, the E-rate and support for rural health care 
facilities. It enforces the Communications Act requirements in these 
fields and handles public inquiries and consumer complaints.
    The FCC's mission, as detailed in the statute, is to facilitate 
competition, promote universal service and technological innovation, 
and to protect the public interest. Much of its recent activities has 
involved implementation of the Telecommunications Act of 1996. In 
addition, it faces the challenge of managing spectrum in an efficient 
manner.
    Operationally, the FCC currently oversees a vast array of 
regulations that it must continually enforce and evaluate in light of 
changing market conditions and technological change. It must also 
respond to input from Congress, and to any changes that Congress enacts 
to its current mission.
    6. Are you willing to appear and testify before any duly 
constituted committee of Congress on such occasions as you may be 
reasonably requested to do so? Yes, I would welcome the opportunity to 
do so.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated? As a 
staffer for Senator Daschle, I have been intimately involved in policy 
matters which fall under the FCC's jurisdiction. This experience has 
given me a working knowledge of the Commission, its functions, its 
organization and its employees. The Senate has provided an excellent 
setting in which to learn the details of the Communications Act of 
1934, which defines the Commission's responsibilities, and its history 
as a living document which is constantly interpreted and reinterpreted 
by the Commission, the Courts, Congress and stakeholders.
    I have worked with Senator Daschle and other Senators to take a 
leadership role on a number of telecommunications initiatives. Most 
recently, we worked on a bipartisan, bicameral basis to win enactment 
of a significant program to promote broadband deployment in rural 
areas. The legislation, enacted this year as part of the Farm Bill, 
will provide unprecedented levels of assistance each year in low-cost 
loans to providers so that they may offer broadband service to rural 
communities that lie beyond the reach of current deployments.
    This achievement emerged from a long-term effort by Senator Daschle 
and other Senators, with my assistance, to promote more widespread 
broadband deployment to rural and other underserved communities. This 
included my taking the staff, lead in spearheading and organizing a 
series of events that both studied and highlighted the need for Federal 
leadership to promote broadband. In September, 1999, Senator Daschle 
hosted the ``CEO Summit on Rural Telecommunications,'' attended by 
then-FCC Chairman Kennard and other FCC Commissioners, top CEOs from 
every segment of the telecommunications industry, and a number of 
Senators, their staff, members of the public and the press. That event 
was followed shortly thereafter by another bipartisan forum entitled 
``Going the Extra Mile: Bringing High Speed Internet to Rural 
America,'' which explored the efforts by rural telecommunications 
providers to meet the need for broadband deployment, the specific 
technological and economic challenges posed by distance and population 
dispersion in rural markets, the applicability of universal service 
support to the broadband context and the potential that certain 
wireless and satellite technologies could speed deployment of broadband 
to rural businesses and residences. The FCC Chairman gave his view of 
the FCC's role in fostering rural broadband deployment and a number of 
other leading experts and practitioners in the field offered their 
advice. These initiatives also involved numerous letters, meetings and 
other communications with FCC Commissioners and staff to ensure that 
additional attention was paid to the need to spur nationwide broadband 
deployment.
    Senator Daschle also charged me with helping to develop a 
comprehensive congressional technology agenda which Senator Daschle and 
Representative Dick Gephardt unveiled live on the Internet in April, 
2001. It contained a detailed series of proposals to spur innovation, 
productivity, economic growth and job creation. This effort required 
extensive consultation with each of the many Congressional committees 
that have jurisdiction over technology issues and the many Members of 
Congress with an interest in these issues. This exercise helped me 
establish a broad vision for promoting U.S. technological development 
in which the FCC, along with many other Federal agencies, plays an 
important role.
    I have also worked with Senator Daschle on initiatives to promote 
efficient spectrum management, improve the availability of local-to-
local television service to all regions of the U.S., and to establish 
the validity of electronic signatures and numerous of other 
telecommunications initiatives.
    As Senator Daschle's leading banking and financial services 
advisor, I have also gained a solid understanding of the operations and 
structure of the capital markets, which remain crucial in the financing 
and development of the U.S. telecommunications infrastructure overseen 
by the FCC. For example, I worked on every aspect of the landmark 
legislation to revamp the financial services industry, the Gramm-Leach-
Bliley bill. This experience provided me with great perspective on the, 
latest developments in a field which plays a key role in the future of 
the telecommunications industry. Moreover, I have participated in the 
multi-year effort to enact bankruptcy reform, the commercial aspects of 
which are unfortunately playing an increasingly prominent role in the 
structuring of the telecommunications industry.
    In my previous staff position for the Senate Special Committee on 
Aging, I undertook a number of in-depth investigations and organized a 
number of hearings, many of which led to changes in Federal law or 
reforms of executive agency practices and organizational structures. 
This experience in exploring the depths of complex issues, and learning 
how to conduct Federal investigations and organize fact-finding 
hearings will help me, if confirmed, to evaluate the complex field of 
telecommunications. Moreover, this oversight experience provided 
valuable insight into the management of large and complex Federal 
agencies and how to address bureaucratic problems that can have an 
adverse effect on the public which relies on those agencies. In this 
position, I also learned first-hand the importance of affordable 
telecommunications services to senior citizens and their families.
    I served as the primary advisor to Senators Pryor and Riegle on 
some of the largest programs in the Federal budget which fall under the 
jurisdiction of the Finance Committee on which they served. This 
responsibility rapidly developed my ability to evaluate the 
effectiveness of Federal programs, initiate specific proposals for 
improving them and forge a bipartisan consensus in order to get changes 
enacted or otherwise approved by Federal agencies. This experience 
would aid me, if confirmed, in confronting the many challenges to the 
efficient functioning of the FCC.
    My undergraduate and graduate education focused on how American 
history, political science, economics and public policy analysis could 
be employed to improve the functioning of government. My political 
science studies at Stanford, followed by my studies there to attain a 
Masters in history, helped me to better understand the context in which 
government decisions were being made. I furthered my studies at 
Harvard's Kennedy School of Government, where I gained valuable lessons 
in economics, statistics and public policy analysis.
    In sum, I have had the privilege of studying and serving in 
capacities that have provided a unique level of experience, exposure 
and education about Federal Government processes, including those 
involving telecommunications policy. I have dedicated my career to 
public service in the U.S. Senate, working for some of its finest 
members. The Senate remains, in my view, the world's greatest 
deliberative body. I can imagine no greater training ground to prepare 
an individual for the enormous responsibility of implementing the 
complex and often disputed telecommunications laws enacted by Congress.
    Public service has afforded me the opportunity to make some 
concrete contributions to what I, and the members I served, considered 
to be in the public interest. If confirmed, I look forward to new 
opportunities to continue to do so.
    2. Why do you wish to serve in the position for which you have been 
nominated? It is a great privilege to serve the government of the 
United States. This country and my home State of South Dakota have 
given so much to me and my family that no amount of giving back in the 
form of public service can ever repay the gratitude I feel. My mother's 
family found safe haven here from the holocaust as they escaped Nazi-
occupied Poland. My father's family found safe haven here from the 
pogroms in Russia around the turn of the century. My greatgrandmother 
homesteaded near the Badlands of South Dakota, and my grandfather went 
on from there to found a business that became one of the largest 
employers in the state.
    Now, based on the extraordinary opportunities and education I have 
been afforded in the Senate and at fine educational institutions, I 
would like to use my experience to promote the public interest as 
envisioned by Congress in its communications laws. The FCC has before 
it perhaps the most exciting challenges of any agency in promoting the 
development of telecommunications and information technologies and 
services during a time of economic difficulty in the industry and 
security threats to our country. I would like to work toward achieving 
bipartisan solutions that maximize the ability of the Commission to 
contribute to productivity, economic growth and improved security for 
the entire country.
    Having been born and raised in one of the most rural states in the 
country, South Dakota, and given my experience working on behalf of 
South Dakota for 7 years in Senator Daschle's office, I see the value 
of quality communications and media services in people's lives. My 
experience has taught me that these services can make a positive 
contribution to economic development, education, public safety, and the 
quality of health care services available to people in need. In rural 
areas like the one where I was raised, the availability of the most 
advanced communications technology can determine whether a small 
community can offer an economic future to its citizens, and can even 
mean the difference between life and death in the case of medical 
emergencies. It is also clear that enhancing the quality of the 
nationwide telecommunications infrastructure improves the overall 
economy by increasing the productivity and efficiency of the entire 
nation. If confirmed, serving at the Commission will provide me with an 
opportunity to promote the transforming power of communications and 
media services in people's lives.
    The FCC has been charged by Congress with a key role in fostering 
competition, innovation and universal service. Advanced technologies 
can connect people to new opportunities and obliterate the distances 
between them. They can contribute to our quality of life, and keep this 
country competitive in the global economy. If confirmed, I will work 
with the other Commissioners and the many talented people at the 
Commission to help improve the telecommunications economy and promote 
the deployment of the most advanced technologies to every region and 
sector of American society, as envisioned by the Telecommunications Act 
of 1996.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? If confirmed, my goals are to work toward 
expanding access to telecommunications services for all Americans, 
including broadband services, to help restore the economic vitality of 
the telecommunications sector, and to address emerging public safety 
and security needs. In pursuing these goals, I will strive to 
faithfully carry out the communications laws enacted by Congress, 
consistent with Congressional intent ascertained from a plain reading 
of the statute and its legislative history. In order to accomplish this 
most effectively, I will work to keep open and improve communications 
with Members of Congress and their staffs. Working firmly within that 
framework, I will seek to realize the goal of improving the economic 
climate of the telecommunications industry, which is currently 
witnessing an historic downturn, so that continued innovation, 
investment and deployment can improve the level of services available 
to consumers. This effort can be accomplished in part by working toward 
the statutory goal of the Act itself, which calls for extending the 
availability of advanced telecommunications technology to all Americans 
in all regions, including the ubiquitous deployment of broadband. 
Finally, our country must have the most reliable and sound 
telecommunications infrastructure in order to meet new and emerging 
threats to our security. Addressing the needs of the public safety 
community must remain at the very forefront of the Commission's agenda.
    4. What skills do you believe you may be lacking which maybe 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? This Commission has a vast responsibility 
in a number of complex industries. It would be difficult for any 
individual to master the intricacies of all of those many areas of 
jurisdiction. Recognizing these difficulties, despite my years of 
experience in this field, I will examine even more intensively the many 
issues arising before the Commission, taking advantage of the greater 
access to information available to Commission members. I realize that 
many different challenges face the legislative branch and independent 
regulatory agencies of government. If confirmed, in making the 
transition to the FCC, I will need to reach out to the many experienced 
and skilled public servants within the Commission. Moreover, I will 
also draw on the experience of leading outside experts, including those 
in academia and public interest groups, and that of the many leaders in 
the telecommunications industry. I will also reach out to regular 
consumers and residents of rural areas to learn about their 
perspectives. Telecommunications is a rapidly changing field and I will 
need to refine my knowledge constantly to keep abreast of these 
changes. I am confident this can be accomplished by drawing on the 
seasoned Commission staff and leading technologists from outside the 
agency.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. The 
United States was founded upon a Constitution that carefully enumerates 
powers available to the Federal Government, and places limits on those 
powers. The American Revolution was largely a response to abuses of 
power by an unaccountable king. Emerging from this beginning, the U.S. 
has, historically and properly, retained a skeptical view of the role 
of government power. Most importantly, it vested responsibility for 
limiting the encroachment of government into the private sector and 
people's lives not only through the Bill of Rights, but through a sound 
democracy. Laws are established by the people through their 
representatives in Congress.
    For officials in a regulatory agency such as the FCC, it is 
imperative not to exceed the authority delegated to the agency by 
Congress when applying regulations to the private sector. Congress has 
the power to regulate interstate commerce, and regulators must restrain 
themselves from using their congressionally delegated authority to 
exceed the limits of congressional mandates. When that happens, it is 
up to the courts to impose a further restraint upon regulators. I 
consider the necessity for such judicial action a failure to interpret 
congressional intent in implementing the law and, if confirmed, would 
strive to avoid such failure.
    In my view, which happens to be consistent with the 
Telecommunications Act, competition is preferable to regulation as a 
means of encouraging innovation, lowering prices and improving the 
quality and availability of services to consumers. Some sectors of the 
telecommunications industry are already witnessing a competitive 
market, while others are still making the transition. Where competition 
thrives, the role of government should be highly limited. A greater 
government role may be needed to facilitate competition in less open 
markets, and government action may be necessary to stimulate service in 
other instances in which the market fails to address essential societal 
goals, such as the deployment of the advanced services to rural areas. 
In these exceptional circumstances, to make markets work best, the 
government should operate in a fair, clear and open manner, 
establishing frameworks that are technologically and competitively 
neutral. The goal must always be to get to the point where market 
forces and competition render governmental regulation unnecessary. Once 
that point is achieved, the regulatory environment should diminish 
deftly and appropriately.
    In terms of when government programs are no longer necessary, 
section 10 of the Communications Act provides useful guidance. This 
provision authorizes the Commission to discontinue applying regulations 
that are no longer needed to prevent discrimination or other unjust 
practices or charges, or to protect consumers. This provision 
specifically requires the Commission to weigh whether or not 
eliminating a regulation could enhance competition. In general, I agree 
with the proposition that a program or regulation is no longer needed 
when the market failure it was designed to correct has been addressed.
    The government has a role to play in furthering national goals. For 
example, the government has historically promoted universal service in 
areas such as postal service and telephone service. It has also 
established a national highway system, and promoted universal access to 
electricity. In these cases, government has worked in close cooperation 
with the private sector to accomplish laudable goals. Whenever 
possible, the government should attempt to work in partnership with the 
private sector to address policy goals in areas where competition or 
the market alone might not accomplish them to the satisfaction of 
policymakers in Congress. It is a core, bipartisan American value that 
the government should act to secure universal service for its citizens. 
This policy goal, when met, enhances the value of the 
telecommunications network for all who use it, whether as consumers or 
providers.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives? The FCC is 
an independent regulatory agency created by the Communications Act of 
1934 to oversee emerging communications technologies by wire and radio. 
Its mission has been expanded by subsequent amendments to include 
television, satellite and cable. It is charged with carrying out the 
responsibilities conferred upon it by Congress to help ``all the people 
of the United States'' benefit from the best telecommunications system 
possible, and to do so at reasonable rates.
    In short, the FCC regulates radio and television broadcasters, wire 
common carriers, wireless and satellite communications providers, as 
well as multichannel video programmers, and helps coordinate 
international and satellite policies. The FCC oversees the 
administration of universal service support programs, including high-
cost and lifeline support, the E-rate and support for rural health care 
facilities. It enforces the Communications Act requirements in these 
fields and handles public inquiries and consumer complaints.
    The FCC's mission, as detailed in the statute, is to facilitate 
competition, promote universal service and technological innovation, 
and to protect the public interest. Much of its recent activities has 
involved implementation of the Telecommunications Act of 1996. In 
addition, it faces the challenge of managing spectrum in an efficient 
manner.
    Operationally, the FCC currently oversees a vast array of 
regulations that it must continually enforce and evaluate in light of 
changing market conditions and technological change. It must also 
respond to input from Congress, and to any changes that Congress enacts 
to its current mission.
    7. In reference to question No. 6, what forces are likely to result 
in changes to the mission of this agency over the coming 5 years? The 
FCC's fundamental mission will change only to the extent that Congress 
amends the laws governing the agency, or that competition develops in a 
manner that obviates the need for regulation. Even if such fundamental 
developments do not occur, however, in certain areas the agency will 
confront the need to respond to technological innovation, and to 
accommodate rising demand for spectrum and new wireless technologies, 
as well as to respond to significant changes in the marketplace that 
may emerge.
    8. In further reference to question No. 6, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why? While outside forces are presenting 
challenges to the FCC, I am hopeful none of them will prevent it from 
accomplishing its statutory mission. One great outside challenge now 
facing the agency is that changes in revenue streams are placing 
pressure on universal service, which may complicate efforts to ensure 
its sustainability and to encourage the deployment of advanced 
services. Second, increasing demands on spectrum are straining the 
ability of the agency to balance the need to promote the deployment of 
advanced wireless telecommunications services with the essential needs 
of national security and public safety. Third, the Commission will need 
adequate resources to carry out its mission as the telecommunications 
environment grows ever more technologically complex. It will be a 
challenge to attract and retain the best-trained specialist&in the 
fields of telecommunications technology, economics, and law unless 
resources keep pace with the demands placed on the agency.
    9. In further reference to question No. 6, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years? The agency can improve communications with 
Congress so that emerging problems can be addressed in the most 
cooperative manner possible. In addition, the judicial review process 
has led increasingly to inconsistent interpretations of the law, in 
some cases due to inadequate efforts to provide objective justification 
for some of the regulatory positions the agency has taken. There is 
also a need to show more dedication to expeditiously and responsively 
addressing section 254 of the Telecommunications Act in light of the 
changing nature of the marketplace.
    10. Who are the primary stakeholders in the work of this agency? 
The primary stakeholders are residential and business consumers of 
telecommunications services. Congress, which created the agency, is 
also a primary stakeholder which is accountable and responsive to those 
consumers. Telecommunications businesses that provide services to 
consumers are, of course, key stakeholders. Others include the White 
House, related executive branch agencies, State regulators, and 
international governments.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10? The 
proper relationship varies in relation to the various stakeholders. The 
FCC is an independent regulatory agency. It must act to preserve its 
independence if its decisions are to be regarded as objective and fair. 
Given this position, the agency must always keep focused on its 
mission, as embodied in the Communications Act, to protect consumers 
and promote the public interest. As such, it is imperative that 
Commissioners maintain close communications with Congress so as to 
reflect most accurately its intentions with regard to the law and 
attend most efficiently to members' concerns as raised by their various 
constituencies. Commissioners should work cooperatively with outside 
stakeholders, listen carefully to their concerns, and respond to those 
concerns in a manner consistent with the law. Commissioners should hear 
and consider fully the competing visions of the many providers of 
telecommunications services and evaluate what outcomes would best serve 
the public interest as intended by the Act. All stakeholders should be 
heard and treated fairly, but none should be granted any special 
treatment in terms of access or outcomes.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure your 
agency has proper management and accounting controls? If confirmed, I 
will consider it my responsibility to work closely with and oversee 
agency management and administrative personnel, and help to ensure a 
clean audit. The Act specifies that the Chairman is to serve as the 
chief executive officer of the Commission, and the Commission has hired 
a Chief Financial Officer. At the same time, all Commissioners are 
responsible for overseeing and assisting with the management of the 
agency in order to comply with statutory mandates. I will seek to work 
closely with these officials to help establish the most effective 
organizational structure and the most efficient use of the budgetary 
resources provided by Congress. In terms of what will most closely fall 
under my purview if confirmed, I will employ diligence and careful 
scrutiny in administering the resources of my office. (b) What 
experience do you have in managing a large organization? I have 
extensive experience in congressional oversight of large agencies, 
including committee oversight experience in evaluating the management 
of the over 60,000 employees of the Social Security Administration. I 
also have extensive experience in the congressional budget process 
involving the entire Federal Government, as I have assisted Senator 
Daschle with those responsibilities. While this differs from direct 
management experience of a large agency, if confirmed I will work 
closely with agency officials who manage the day-to-day operations of 
the Commission to refine the management skills I gained on the Hill in 
a manner consistent with its operations.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving those 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. All successful organizations, and people for 
that matter, whether in government or in the private sector, must have 
a plan with measurable goals in order to maximize effectiveness. The 
GPRA, which requires a Strategic Plan and Annual Performance Plans, 
increases the effectiveness of Federal agencies by forcing them to 
adopt a structure by which to measure performance goals and to help set 
budget priorities. These measurable goals permit Congress, and the 
agency itself, to evaluate the progress being made toward achieving 
certain milestones. They also help direct human and financial resources 
to promote the most pressing priorities. Moreover, they can help 
determine whether certain programs and initiatives should get 
additional resources, fewer resources, or should be eliminated 
entirely. (b) What steps should Congress consider taking when an agency 
fails to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? The appropriate response to agency failures would 
depend upon the size, significance and impact upon the public of those 
failures, and the degree to which it was due to factors under the 
agency's control, or upon external factors. Depending upon these 
circumstances, Congress is best able to determine the appropriate 
response based upon its investigative and oversight powers. While all 
the above options are available to Congress, the need for drastic 
measures can be minimized if the agency and Congress maintain effective 
communication so that would-be failures can be caught early and 
minimized through early corrective action. (c) What performance goals 
do you believe should be applicable to your personal performance, if 
confirmed? In order to judge whether I fulfill my responsibilities, if 
confirmed I should be evaluated as to whether I have implemented the 
law consistent with congressional intent in a balanced, fair and 
impartial manner, and done so expeditiously and with thorough attention 
to the details of every issue that comes before the Commission.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? My view of managing 
involves identifying a core set of values and a vision, and 
communicating them clearly to employees. Foremost among these is a 
dedication to serving the public interest and doing what is right for 
the country. Setting a high standard for service in a public office, 
whether as an FCC commissioner or as a Senate staffer, serves to 
inspire employees to reach their full potential by making them realize 
that they are working for a cause much greater than themselves.
    Supervisors should lead by example, both in terms of their work 
ethic and their communication of a vision that drives employees toward 
measurable goals. Supervisors should maintain an open door, be frank 
about both successes and shortcomings of employees' performance, and 
give regular guidance as to how to improve performance. These frank 
discussions are best accomplished in a collaborative setting, with 
incentives and opportunities to reward outstanding performance. Most 
importantly, employees should feel empowered to achieve their highest 
aspirations, and should be recognized and given credit for 
achievements. The message is always that we are all in this together, 
as a team, and that our successes and failures matter greatly because 
other people are depending upon us for, our judgment and work product.
    I have never been the subject of an employee complaint.
    15. Describe your working relationship, if any, with Congress. Does 
your professional experience include working with committees of 
Congress? If yes, please describe. I have served as a Senate staffer 
for the past 15 years, advancing in positions of increasing 
responsibility from positions with a personal staff, a committee staff, 
and with a leadership staff. In each of these positions, I have worked 
regularly with congressional committees in both the Senate and the 
House. In the Senate, I have worked particularly closely with the 
Committee on Commerce, Science and Transportation, the Committee on 
Finance and the Committee on Banking, Housing and Urban Affairs.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The Inspector General must maintain independence 
from the Commissioners and all employees of the agency. If confirmed, 
were I to observe anything which appeared to involve improprieties, I 
would consider it my duty to report that matter to the IG and allow the 
IG to conduct an autonomous investigation. In addition, I would review 
any recommendations by the IG involving FCC activities and operations 
with great seriousness and act upon them to ensure compliance with 
statutory requirements. I would offer my full support and cooperation 
to the IG's office and urge cooperation throughout the agency as the IG 
carried out its responsibilities. I would not tolerate any impediments 
to the IG's efforts to investigate any and all operations of the 
Commission.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. I believe 
I currently enjoy an excellent working relationship with the Commerce 
Committee and its members on both sides of the aisle, and, if 
confirmed, I would strive to buildupon those relationships. As I have 
stated, I see it as a fundamental priority to ensure that all of my 
activities comply with the spirit and the letter of the laws enacted by 
Congress. If confirmed, I pledge to maintain a regular dialog with 
members of this committee and their staff, consistent with the agency's 
procedural rules. I will seek regular guidance from them concerning how 
best to implement that statute as envisioned by the committee and by 
Congress. I fully recognize that Congress sets the United States' 
communications policy and the FCC implements it, and will act 
accordingly in all of my relations with this Committee.
    18. In areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
State your personal views. I would not presume at this time to 
recommend any specific legislative actions regarding Federal 
telecommunications policy. If confirmed, I will view my role as 
carrying out the law as enacted. The agency remains involved in 
debating ways to carry out the substantial responsibilities vested in 
it by the Telecommunications Act of 1996. 1 would note that the 
Chairman has proposed strengthening the agency's enforcement authority, 
and his proposals have great merit and deserve the careful attention of 
Congress.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please State why. If yes, please State 
what steps you intend to take and a timeframe for implementation. If 
confirmed, I will work with the Chairman in order to set appropriate 
budgetary priorities and processes, and will seek to ensure the 
Commission has adequate resources to carry out its responsibilities to 
meet the national priorities established by Congress. I will begin work 
toward this goal immediately upon confirmation.

    Senator Inouye. Thank you very much.
    I have several questions, but I'd like to submit them to 
you for your consideration and response.
    Senator Inouye. Senator McCain.
    Senator McCain. Do you believe that there's a crisis in the 
telecommunications industry today?
    Mr. Adelstein. I do.
    Senator McCain. How so?
    Mr. Adelstein. There's an unprecedented downturn, I 
believe, in the telecommunications economy. This sector has 
never seen the likes of it. The market capitalization has been 
reduced dramatically over the last few years by $2 trillion. 
We're seeing a rash of bankruptcies. There's a crisis of 
confidence regarding the financial underpinnings of the system. 
We've seen a problem in major corporations that have been 
alleged to have engaged in fraudulent activities. If we don't 
have public and investor confidence in this sector, it's going 
to be difficult to raise the capital needed to maintain 
America's leadership, as I indicated in my opening statement.
    Senator McCain. Is one of the symptoms of this problem 
overcapacity of broadband?
    Mr. Adelstein. Some analysts believe that there is an 
overcapacity in certain aspects of long-haul delivery systems.
    Senator McCain. And yet there's not broadband service to 
some parts of America.
    Mr. Adelstein. That's exactly right. There's a problem in 
delivering service to the last mile, which is the main 
bottleneck.
    Senator McCain. What do you think we should do about 
broadband?
    Mr. Adelstein. Well, as I indicated, the deployment of 
broadband is one of my top priorities. In fact, it's a top 
priority, I think, in the Telecommunications Act, which is what 
I would be charged to implement. You can't deploy broadband 
fast enough. And I come from a rural State, as has been 
indicated, and in South Dakota I think we've done a good job of 
deploying broadband and delivering it to the last mile. But 
many rural, insular and tribal areas don't have the level of 
service they should. I'd like to use the tools available under 
the Act, if confirmed, to address this problem. The main way to 
do that is to enhance competition, to advance universal 
service, and to engage in efficient spectrum management.
    Senator McCain. We'd all like to enhance competition, I 
believe. Did you happen to see the remarks of Chairman Powell, 
I believe, reported in the media yesterday that perhaps you may 
have to even see something which was unthinkable just a short 
time ago, that perhaps parts or all of WorldCom might be 
acquired by one of the Bell Companies?
    Mr. Adelstein. I did see that article.
    Senator McCain. Do you have any comment?
    Mr. Adelstein. I prefer not to comment on any potential or 
hypothetical merger, as I may be, if confirmed, in a position 
of having to make determination regarding that merger. In 
general, I would say that the Chairman made a good point, that 
we are facing an urgent situation in this sector of the economy 
and that steps are needed to address the problem.
    Senator McCain. It seems to me he's saying also that 
perhaps, in some aspects of telecommunication, because of the 
requirements for infrastructure and massive capital infusions, 
that perhaps it can't all be competitive. Do you get that 
inference out of his remarks?
    Mr. Adelstein. As I read the Telecommunications Act, I 
believe that it's designed to enhance competition and----
    Senator McCain. It was designed to, yes.
    Mr. Adelstein.  [continuing]. It would be incumbent upon 
me, if confirmed, to do everything I could to promote that.
    Senator McCain. Well, as one of, I think, three hardy souls 
who voted against the Telecommunications Act in 1996, I 
believe, by any measurement, it has not lived up to the promise 
of the Act when it was passed. Now, maybe some events were out 
of the control of the sponsors, but the incredibly optimistic 
statements that were made on the floor of the Senate and in 
this Committee when that bill was passed have turned out, 
obviously, not to be true. I mean, obviously, they weren't 
true.
    My opening question to you, ``What's the state of 
telecommunications industry today,'' is ample evidence that 
something went wrong. Something went badly wrong. Now, whether 
it was just confined to the telecommunications industry and 
their behavior, or whether it was the bubble, the defiance of 
rational laws of investment, of unscrupulous--clearly we know 
there was unscrupulous executives; in fact, maybe even criminal 
behavior on the part of some of them--and maybe part of it was 
over-hyping the potential of things like broadband and how 
quickly they would become part of America's everyday life.
    Now, you and I have played this game for many years, so I 
know that it'll be very difficult to get a definitive answer 
out of you, because you might make Senator Brownback mad if you 
did. But the fact is, in my view, as you agree, we are in a 
crisis situation. The FCC will play a major role--a major 
role--because we may continue to be gridlocked to a large 
degree here in the Congress because of--look at the different 
broadband bills that have been proposed, which I think is ample 
evidence of the divergence of views. But here is a sense of 
urgency and a sense of priority about this issue because of its 
impact, not only on the economy of the United States, but, 
frankly, our ability to progress as a Nation because of the 
potential that the information technologies have in all aspects 
of American life and, indeed, rural life.
    So I hope that you will recognize, as one who was heavily 
involved in the Telecommunications Act of 1996, that it has not 
lived up to the expectations that were held for it at the time 
it was passed. And if you don't believe me, go back and look at 
the statements that were made at the time of its passage. We 
are always self-congratulatory when we pass legislation. We 
reached the extremes of rhetoric on the passage of that 
legislation. And every lobbyist in town was writing that 
legislation. And every group was there behind those closed 
doors except one group of Americans, and that was the American 
citizen, the ones that can't afford a lobbyist, to pay millions 
of dollars to represent them here in Washington. Portions of 
that bill were written by lobbyists. We all know that. No 
portion of that bill, that I know of, was written by an average 
American citizen. It's a lesson as to how we do business around 
here.
    But, more important, in the immediate term, we'd better 
look at that bill, and what its consequences were, both 
intended and unintended, and we'd better start to think of new 
and innovative ways of doing business, both here in the 
Congress and at the FCC. The reason why I place so much 
responsibility on the FCC, frankly, is an admission of my 
pessimism of our ability to act here in Congress, because we 
have so many competing special interests that gridlock us time 
after time. Big money and big-money lobbyists that are here--a 
bunch of them are here in this room making several hundred 
dollars an hour as we speak. I wish we were compensated as 
well.
    The fact is that we need to review what has happened since 
we passed that bill in 1996 and learn some lessons from it, 
because I don't know how we avoid repeating mistakes in the 
future unless we review what happened in the past. One 
postscript. They were well-meaning people when this bill was 
passed. There was no evil or malfeasance, in my view, of the 
people who were involved in the passage of this bill. I just 
think it was wrong. And I'd be glad to listen to any response 
you might have, in a general or a specific fashion.
    Mr. Adelstein. Senator McCain, I share your sense of 
urgency about this problem, your sense of concern about the 
nature of the telecommunications economy and the challenges 
that it's facing. I believe that addressing these challenges is 
important, not just because there's a downturn of the 
telecommunications sector itself, but because the 
telecommunications sector is so important to the overall 
productivity and efficiency of the economy.
    As I said in my opening statement, if we don't have the 
best system in the world, if we don't maintain our edge, we're 
not going to be able to be as competitive in the global economy 
as we otherwise could be. And so, if confirmed, I commit to you 
that I will do everything possible, using the tools of the Act, 
to try to turn the situation around--to the extent that the FCC 
has the ability to contribute in doing so.
    Senator McCain. Well, you're a fine young man. I 
congratulate you. I congratulate your family. And I'm grateful 
that people of your caliber are willing to engage in public 
service.
    I thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Brownback.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman, and 
thank you for holding the hearing.
    Congratulations on your nomination. Congratulations to your 
family. I've got a couple of questions and thoughts that I'd 
like to raise with you, if I could.
    We met and discussed privately some of these issues, but I 
just want to raise them here, as well. A couple of items that 
the Senate is working on a great deal--overall broadband 
deployment, ubiquitous broadband deployment. We're seeing now 
more bills circulating in the system to try and get more 
broadband out there to consumers. And it's going to be a tough 
time where you've got capital markets devaluing 
telecommunications and deployments so heavily. So I think this 
is going to be a key issue. I hope that the FCC will be 
positively engaged in this in trying to get as much broadband 
out and deployed as broadly and as diffusely as possible as we 
wrestle with the issue here, and as the capital markets take 
their hit on the telecommunications field.
    What do you hope to see taking place at the FCC on 
ubiquitous broadband deployment?
    Mr. Adelstein. I believe that the Act clearly is designed 
to promote the deployment of advanced services to all areas of 
the United States, including rural areas such as your State, 
Kansas, and mine. You've shown great leadership on this issue 
in your commitment, of which I am well aware, to moving that 
process forward.
    I believe that the Act contains a number of tools designed 
to enhance ubiquitous broadband deployment, including promoting 
competition, both inter-modal and intra-modal competition, 
advancing universal service, which is critical, and efficiently 
managing the public spectrum. Each of these tools promotes 
broadband deployment over wireline and wireless networks.
    Senator Brownback. I hope you'll take a very aggressive 
stance on getting it out everywhere, because you'll be in a key 
spot, if you're confirmed, to be able to do that, even after 
legislation that's being considered from here.
    We've got a lot of issues that we're starting to take and 
work on here on unlicensed spectrum, on spectrum management. We 
need to back up on spectrum and come together on a 
comprehensive plan, a comprehensive view of that finite 
resource, and press on it aggressively so that we can have 
enough in the future deployed in the right places so that we 
can meet all the needs that we're going to have of our 
citizenry.
    What are your thoughts on that, looking at an FCC 
Commissioner position?
    Mr. Adelstein. I think you raise a very good point about 
spectrum management. I identified it as a major priority. I 
think it's one of the primary functions of the FCC, going back 
to the very founding of the Commission in the 1934 Act. 
Spectrum is a scarce public resource, as you noted. Efficient 
management is essential.
    You also mentioned the need for coordination. I agree with 
you. The FCC manages, as you know, the spectrum used by 
commercial and public safety users. The NTIA controls 
government spectrum, including that utilized by the Department 
of Defense, which is of such a great concern.
    There's a growing need for more spectrum, both by 
commercial and governmental users, including the Department of 
Defense, and it's difficult to accommodate that, but we're 
going to have to do more with less. One way to do that is to 
foster innovation and to enable innovative technologies to come 
forward to meet that demand more efficiently. I believe that 
the Act gives the Commission the tools and the mandate to 
foster such innovation.
    Senator Brownback. Do you have any thoughts about taking 
that forward in the agency? Do you think the Act gives the 
agency the tools to accomplish that? Can you flesh that idea 
out further?
    Mr. Adelstein. There are tools that could be employed to 
improve coordination. The Commission has a significant ability 
to try to foster innovative telecommunications technologies, 
particularly wireless technologies. At the same time, the 
Commission needs to guard against harmful interference with 
current users. It's a very delicate balancing act to promote 
innovative technologies while protecting against harmful 
interference, but that's the mission of the Commission, as I 
see it.
    Senator Brownback. Any other tools that you could use in 
sponsoring and having good spectrum-management policy that you 
envision as a Commissioner?
    Mr. Adelstein. As I indicated, I think there's a need for 
better coordination between the FCC and the NTIA, as well as 
the State Department, which has a major role in overseeing the 
global spectrum and coordinating our domestic spectrum policy 
with foreign nations. I think that more needs to be done to 
coordinate among these different agencies. But it's also an 
inherent problem, because there are competing needs for 
spectrum. Not only are there different agencies, but also they 
represent competing interests in terms of the demand for this 
scarce resource.
    So, if confirmed, I'm committed to doing my best to improve 
that coordination and to finding the best uses of the available 
spectrum.
    Senator Brownback. One other issue I wanted to raise with 
you, it's one I mentioned to you in our meeting we had.
    It was about the public-interest test on over-the-air 
broadcast in television and radio.
    And, Mr. Chairman, if you could, I'd like unanimous consent 
to enter in the record a--this is a one-page summary of a study 
of TV violence and brainmapping in children. It's got nice, 
interesting color pictures from the study. And what it shows is 
the brain activity that was going on while a child watches 
violent entertainment, and what takes place, what parts of the 
brain get activated when this occurs.
    It's a very interesting study, in that we've got about a 
thousand studies--I mean, truly about a thousand behavior 
studies, that say that kids below a certain age, if they watch 
violent entertainment, they become more violent. That happens 
to be behavioral studies. This, to my knowledge, is the first 
set of studies where they go in and actually map what's taking 
place in the brain.
    I think we're on the same path as on smoking, where, for 
years, people would wake up in the morning, and they had been 
smoking, and they were coughing, and they didn't feel good, and 
so they didn't think smoking was probably good for them, but 
they didn't know for sure. And then we started watching the 
trail, watching the studies, and saw the links between lung 
cancer and other health problems, when we could actually track 
the physical activity that was taking place in the body because 
of smoking. And then that really turned the tide on it and we 
said we really have got to discourage people from smoking.
    Here now, we have what I think is the beginnings of the 
studies of the smoking gun for what's taking place with violent 
entertainment and its impact on kids. The reason I point it out 
to you--and I ask that this be placed in the record--and, if 
you would, to look at it.
    Senator Inouye. Without objection.
    [The information referred to follows:]

                 [From Psychiatric Times, October 2001]

                TV Violence and Brainmapping in Children

                       (By John P. Murray, Ph.D.)

    Research conducted over the past 30 years leads to the conclusion 
that televised violence does influence viewers' attitudes, values and 
behavior (Hearold, 1986; Murray, 2000, 1994, 1973; Paik and Comstock, 
1994; Surgeon General's Scientific Advisory Committee on Television and 
Social Behavior, 1972). Although the social effect of viewing televised 
violence is a controversial topic of research and discussion, the body 
of research is extensive and fairly coherent in demonstrating 
systematic patterns of influence. In general, there seem to be three 
main classes of effects:
    <bullet> Aggression.  Viewing televised violence can lead to 
increases in aggressive behavior and/or changes in attitudes and values 
favoring the use of aggression to solve conflicts (Huston et al., 
1992).
    <bullet> Desensitization.  Extensive violence viewing may lead to 
decreased sensitivity to violence and a greater willingness to tolerate 
increasing levels of violence in society (Drabman and Thomas, 1974; 
Thomas et al., 1977).
    <bullet> Fear.  Extensive exposure to television violence may 
produce the ``mean world syndrome,'' in which viewers overestimate 
their risk of victimization (Gerbner, 1970; Gerbner et al., 1994).
    Although we know that viewing televised violence can lead to 
increases in aggressive behavior or fearfulness and to changed 
attitudes and values about the role of violence in society, we need to 
know more about how these changes occur in viewers--the neurological 
processes that lead to changes in social behavior.
    Within the context of social learning theory, we know that changes 
in behavior and thoughts can result from observing models in the world 
around us, such as parents, peers or the mass media. The processes 
involved in modeling or imitating overt behavior were addressed in 
social learning theories from the 1960s (Bandura, 1969, 1965, 1962; 
Berkowitz, 1965, 1962), but we must expand our research approaches if 
we are to understand the neurological processes that might govern the 
translation of the observed models into thoughts and actions.
    Both Bandura (1994) and Berkowitz (1984) have provided some 
theoretical foundations for the translation of communication events 
into thoughts and actions. Bandura's social-cognitive approach and 
Berkowitz's cognitive-neoassociation analysis posit a role for 
emotional arousal as an ``affective tag'' that may facilitate lasting 
influences. With regard to aggression, we know that viewing televised 
violence can be emotionally arousing (e.g., Cline et al., 1973; Osborn 
and Endsley, 1971; Zilimann, 1982, 1971), but we lack direct measures 
of cortical arousal or neuroanatomical patterns in relation to viewing 
violence.
    The pursuit of neurological patterns in viewing violence would 
likely start with the amygdala, because it has a well-established role 
in controlling physiological responses to emotionally arousing or 
threatening stimuli (Damasio, 1999, 1994; LeDoux, 1996; Ornstein, 
1997). Indeed, a National Research Council report (Reiss and Roth, 
1993) concluded: All human behavior, including aggression and violence, 
is the outcome of complex processes in the brain. Violent behaviors may 
result from relatively permanent conditions or from temporary states . 
. . Biological research on aggressive and violent behavior has given 
particular attention to . . . functioning of steroid hormones such as 
testosterone and glucocorticoids, especially their action on steroid 
receptors in the brain . . . neurophysiological (i.e., brain wave) 
abnormalities, particularly in the temporal lobe of the brain; brain 
dysfunctions that interfere with language processing or cognition.

[GRAPHIC] [TIFF OMITTED] T7750.002


    Thus, one suggestion for further research on the impact of viewing 
media violence is to assess some of its neurological correlates. In 
particular, the use of videotaped violent scenes can serve as the ideal 
stimulus for assessing activation patterns in response to violence.
    It is very likely that the amygdala is involved in processing 
violence, but the projections to the cortex are not clear. However, 
developing hypotheses about viewing violence and brain activation needs 
to start with research on physiological arousal (e.g., Osborn and 
Endsley, 1971; Zillmann, 1982; Zillmann and Bryant, 1994) and then link 
this to cortical arousal. In this regard, the work of Paul Ekman, 
Ph.D., and Richard Davidson, Ph.D., using electroencephalogram 
recordings while subjects viewed gruesome films indicated asymmetries 
in activation patterns in the anterior regions of the left and right 
hemispheres (Davidson et al., 1990; Ekman and Davidson, 1993; Ekman et 
al., 1990). In particular, positive affect (indexed by facial 
expression) was associated with left-sided anterior activation, while 
negative affect was associated with right-sided activation (Davidson et 
al., 1990).
    Our preliminary research (Liotti et al., in press; Murray et al., 
2001) has focused on the amygdala and related structures in an effort 
to identify the neurological correlates of viewing televised violence. 
In this instance, we used functional magnetic resonance imaging (fMRI) 
to map the brains of eight children (five boys, three girls; aged 8 to 
13 years) while they watched violent and nonviolent videotapes. The 
violent video segments consisted of two, 3-minute clips of boxing from 
``Rocky IV'' The nonviolent video segments were two, 3-minute clips of 
a National Geographic program on animals at play and ``Ghostwriter,'' a 
children's literacy program set in a mystery context. In addition, we 
presented two, 3-minute control, rest/fixation clips of an ``X'' on a 
blue screen.
    We, conducted whole-brain (18 to 22 slices) echoplanar fMRI 
throughout the 18 minutes of viewing. Following the viewing, structural 
or anatomical (aMRI) images were acquired. Both the fMRI and aMRI 
images were normalized to Talairach space, and statistical analyses 
were conducted with task-induced blood oxygenation-level dependent 
(BOLD) changes detected using a conventional statistical parametric 
mapping method of voxel-wise independent paired t-tests.
    In this study, we found that both violent and nonviolent viewing 
activated regions implicated in aspects of visual and auditory 
processing. In contrast, however; viewing violence selectively 
recruited right precuneus, right posterior cingulate, right amygdala, 
bilateral hippocampus and parahippocampus, bilateral pulvinar, right 
inferior parietal and prefrontal, and right premotor cortex. Thus, 
viewing televised violence appears to activate brain areas involved in 
arousal/attention, detection of threat, episodic memory encoding and 
retrieval, and motor programming. These findings are displayed in the 
Figure, which provides the significant contrasts between the violence-
viewing and nonviolence-viewing sessions. The regions of interest in 
the composite activations of the eight children included the amygdala, 
hippocampus and posterior cingulate. These areas of the brain are 
likely indicators of threat-perception and possible long-term memory 
storage of the threatevent (particularly, these patterns are similar to 
the memory storage of traumatic events in posttraumatic stress 
disorder) (Brannan et al., 1997; Liotti et al., 2000). These activation 
patterns are important because they demonstrate that viewing video 
violence selectively activates right hemisphere and some bilateral 
areas that collectively suggest significant emotional processing of 
video violence.
    Of course, this is a preliminary study with a small sample of 
children, and we must conduct further studies with larger samples of 
young viewers. However, this preliminary research leads us to conclude 
that there are important, theoretically predictable patterns of 
neurological response to viewing media violence.
    In our next series of studies, we will explore these 
neuroanatomical correlates of viewing violence in children who have had 
differing experiences with violence in their lives in order to better 
understand the processes of sensitization and desensitization.
    In this instance, we will assess the responses of children who have 
experienced violence as victims of abuse, in contrast to youngsters who 
are more aggressive. We also expect to see differences in response to 
viewing violence among the abused, high-aggression and low-aggression 
children. We expect to see increased responsiveness to threat in the 
abused children and decreased responsiveness to threat in the high-
aggression children.
    Furthermore we anticipate differences in media preferences and 
viewing patterns to correlate with the level of aggression in these 
children. This constellation of findings will begin to address the 
patterns of response to aggression and the learning of aggression from 
media models. The issues of desensitization and enhanced aggression may 
be related to the patterns of brain activation observed in these 
children. The social significance of brain mapping and violence viewing 
is the contribution these studies make to our understanding of the 
learning and cognitive/affective processing of aggression in children 
and youth.

    Senator Brownback. Thank you, Mr. Chairman, this is a 
public commodity, the airwaves. We license it to radios, 
television, but in this case I'm talking about television, and 
then they have to use this, according to the FCC, in the public 
interest.
    And I would like for you very much to consider looking at 
these types of studies and asking if, during family hour, when 
we are trying to encourage, I would think, as much as anything, 
families to watch television together, is it in the public 
interest to have a certain level of violent entertainment? Is 
this actually in the public interest?
    I'm not asking you at this point to say we ought to ban it, 
we ought to do this or that. But we certainly ought to be 
funding, I would think, a lot more studies like this to 
determine, not just behaviorally now, but the electrochemicals 
in the brain and the activities in the neurons that fire--is 
this in the public interest?
    Mr. Adelstein. Senator, you raise an incredibly important 
issue. I know that over the years you've shown great leadership 
in addressing this issue--as much as any Member of this body.
    I have a new son, Adam, who is 1 year old. I think he's 
been squired out of the room for the benefit of the Committee. 
But it is something that is of great concern to me personally, 
because of him, and because of all children in the entire 
Nation and of the society that we live in. This goes to the 
heart of what they see and how it influences them.
    You know, I see on television today some of the best 
programming that we've ever seen, yet I also see some of the 
worst, and I'm alarmed by some of what I see. Adam is only 1 
year old, but I wonder when he turns 2 and 3 and starts 
understanding what he sees on TV, what the impact will be on 
him? I want to look at those studies, both personally, and, if 
confirmed, in my next role, to see what can be done in hours 
when children watch television. The broadcasters, I believe, 
should be very vigilant about what is going out over the 
airways.
    Now, you know, there's a V-chip available. I'm not sure a 
lot of parents know about a V-chip. I'm about ready to start 
educating myself in a real hurry. But I also want to try to 
educate others, if confirmed, about the opportunities available 
to parents to try to screen out some of the material that they 
don't think is appropriate for their children. But then 
children can go off to somebody else's house, and parents can 
lose control. So there is a need to do what you've done over 
the years, which is to encourage improvement in this area.
    I remember when I was very young, in one of my earliest 
memories, my father, sitting now over here, brought me in to 
watch the Apollo moon landing, and I'll never forget it. And I 
wonder what will some of Adam's earliest memories be? What will 
he remember? And I hope they're good ones.
    Senator Brownback. Well, this shows, in here in these 
studies, that when a child watches the violent entertainment--
in this, I think they actually showed them scenes from ``Rocky 
IV''--what it stimulates in the brain is the fight-or-flight 
area of the brain. That's the area. And you can see in these 
studies, it just flares up the hot activity, fight or flight. 
And it also stimulates the part of the brain that's for storing 
of significant information and--like, you know where you were 
September 11th. When you heard about the Twin Towers being hit, 
you know where you were. That's a part of the brain that stores 
significant events and significant activity.
    It turns out, when a child watches violent entertainment, 
that part of the brain is stimulated and fires and starts 
building the patterns there. And the reason that this 
researcher speculates that children become more violent is that 
the thinking, the reasoning part of the head, isn't as 
developed, so now, whenever they see a violent situation, their 
brain doesn't process it well and say, ``Well, wait. That's not 
what I saw in a movie.'' They just say, ``this is a violent 
situation'' and react, because the thinking part of the brain 
isn't as developed to say, ``No, wait. This isn't the same 
thing.'' This, I think, is a significant thing for us to look 
at.
    Mr. Chairman, this is a fine nominee. I look forward to 
supporting his nomination, and I look forward to working with 
you on the FCC.
    Senator Inouye. Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. And I'm relieved 
we're moving this nomination, fully supported. And I want to 
thank Mr. Adelstein for coming in yesterday. And we had a nice 
visit in our office after being pushed around a little bit on 
times and everything else. We have hard time, it seems like, 
carving out times to visit about some of the very important 
things.
    We talked about universal service yesterday, and we agreed 
that we're going to have to take some kind of an approach there 
in order to solve that problem.
    One I did not mention yesterday, Jonathan, was my concern--
but it is related to 9/11--my concern with E-911 and the 
buildout of E-911. We worked very hard for a couple of years to 
pass that bill. And now, with the public-safety people who are 
deploying and ready to put a lot of new technology in place, 
I'm not real sure it wasn't one of the bills that we passed 
through here that has as much impact on public safety as 
anything that we've done.
    Mr. Chairman, you were a part of that, the ability to use a 
cell phone and also locate where the caller is coming from and 
to nationalize 911 as the emergency number as far as public 
safety is concerned. And we found out, in 9/11 of last year 
that it becomes even more important now to public safety.
    I want to work with you on those issues and also on 
spectrum reform. How do you respond to an idea that spectrum 
management. Now, you've got to understand that I'm the only guy 
in the whole world that does not think that spectrum is a 
national resource. I think it's a technology. I think we should 
make sure that everybody stays in their lane, and that's about 
it. Once you own it, it becomes a part of the asset folio of 
anybody that uses that particular chunk of spectrum. How do you 
respond that we should just have one agency or one entity that 
deals with spectrum and not be split between two agencies, as 
it is now?
    Mr. Adelstein. Senator Burns, I appreciate what you've done 
over the years on spectrum management--and my understanding of 
the law is that it does split out responsibilities. Any change 
in the allocation of those responsibilities would require 
legislation. At this point, I'd prefer not to comment on 
legislation that might affect the jurisdiction of the FCC.
    At the same time, I would like to return to your comment 
about E-911 services, if I could. Your leadership on this issue 
has been extraordinary, and I think it's an incredibly 
important issue. In my own Jewish tradition, it is said in the 
Talmud, that if you save one life, you save the whole world. 
And I think that someday it will be said that you have saved 
many worlds with the efforts that you've made to promote these 
services. I believe that, if confirmed, there's no higher 
calling for somebody in a position of responsibility in the FCC 
than to ensure that the E-911 implementation is carried out as 
quickly as possible--there can be no delay, no excuses. It has 
to move forward.
    Senator Burns. Well, I thank you for that. And, as you 
know, it just wasn't me on E-911. I had a lot of help. I 
operate from the premise that if you find a turtle sitting on 
top of a fencepost, he didn't get there by himself. And I shall 
continue to work in that vein.
    But there was a lot of us here that understood that this 
was a major piece of legislation that we passed. It was truly 
one that would be very, very beneficial to the people that work 
in emergency services, first responders, and people who are in 
rural areas.
    I continue to be concerned--a lot of loss of life in 
Montana is, No. 1, after the call comes in, we can't find them. 
And 9 times out of 10, they're a long way from the house. And 
so we need some way to do that.
    But I look forward in working with you, Mr. Adelstein, and 
we need you in a chair down there. And also I would be remiss 
if I didn't mention a letter I just got from Bob Rowe, our good 
friend who is a Public Service Commissioner out in Montana. You 
and Mr. Rowe have worked together on a lot of issues, and I 
consider him one of the finest Commissioners that we've had in 
Montana. And if you hadn't have made it, I was going to push 
this fellow pretty hard.
    Knowing your friendship, though, and he highly compliments 
you and is highly supportive of your nomination and looks 
forward to working with you, and so I appreciate that.
    Mr. Chairman, thank you very much. We'll continue to work 
on those issues.
    And I would say this, on spectrum. We have started the ball 
rolling on spectrum management reform. This is a huge issue and 
is not one of those June-bug issues. It is going to take a lot 
of study on the direction we should go and how we should do it.
    And the Chairman and our staffs are working together. We've 
gathered some studies now. We'll start formulating new policy 
for spectrum. We want to do it--we don't want to rush right 
into it, because we know it's a huge issue. It may be as big as 
the 1996 Telco bill before it's all over, because spectrum 
touches so many lives in so many ways that it is not one of 
those that you just ram right into and think you've got all the 
answers. And it's not an issue that we can piecemeal it. We 
think we should have a total look on how we do everything.
    I appreciate the cooperation of this Committee, and 
especially of this Subcommittee, in working on that piece of 
legislation. We will not get anything done this year, but we 
are sure laying the groundwork and visiting with those entities 
and those interests that depend on spectrum, along with our 
military services and our national defense, to work on those to 
where we can come up with, I think, better use of spectrum and 
also allow the new technologies to flow forward.
    I thank you for holding the hearing today. Thank you, Mr. 
Chairman.
    Senator Inouye. What is a June-bug issue?
    [Laughter.]
    Senator Burns. By the way, I got this from an old Senator 
here. You can take a--it's an issue that's coming down the 
track, and it's got such a head of steam that, you know, no 
matter what is said or what is done--you know, you can go out 
and catch a June-bug--you know, those great big old June-bugs? 
And you can put it in a jar and set it up on the shelf in the 
kitchen, and you look at that thing for 3 or 4 days. There is 
no way you can swallow that thing. But if you were going down 
the back roads in your motorcycle----
    [Laughter.]
    Senator Burns. [continuing]. Doing 90 miles and hour, and 
one of those rascals hit you right in the mouth, you can 
swallow that thing just like that.
    [Laughter.]
    Senator Inouye. That's a great explanation.
    [Laughter.]
    Senator Inouye. Senator Dorgan.
    Senator Dorgan. Senator Inouye, you asked one question too 
many.
    [Laughter.]
    Senator Dorgan. I learned long ago never ask Senator Conrad 
Burns what he meant.
    [Laughter.]
    Senator Dorgan. Those of us who----
    Senator Burns. You're just going to----
    Senator Dorgan. [continuing]. Grew up in Dakota never ask 
Montanans that question.
    [Laughter.]
    Senator Burns. But you don't wander through life just being 
a North Dakotan.
    [Laughter.]
    Senator Dorgan. Senator Burns has made a great deal of 
money in my State, by the way, over the years and is thankful 
for North Dakota.
    [Laughter.]
    Senator Dorgan. You were actually run out, as I recall.
    [Laughter.]
    Senator Dorgan. We don't want to have fun at Mr.
    Adelstein's expense, however.
    Let me tell you that this is a day I share Senator Burns' 
comments. I'm really pleased that we've reached this day, and 
it's taken far too long. I'm very distressed that it took this 
long to get this position filled. There's no reason to rehash 
why that's the case; but, nonetheless, today I'm pleased to 
support a nominee that I think will do an extraordinary job and 
someone the Commission desperately needs at this point. This 
Commission begs for your voice, and when you get there, be a 
tiger on these issues. I know you will, but on the issues of 
universal service, competition, and the things that really 
matter to a lot of the American people, we're going to have to 
rely on you to be a voice that's extraordinarily aggressive, 
and never give up on these issues.
    Mr. Adelstein, let me just make a couple of points. We 
wrote the 1996 Telecommunications Act in this Committee, and we 
thought it would hold great promise for competition. The fact 
is, we've seen precious little competition in local exchanges 
across the country. It has not performed as we would have 
liked. There are people who say: ``Well, that's because we 
don't let the Bells go out and get engaged in long-distance 
service.'' But that's not relevant, and that's not what's 
important here. That's not what has created the circumstance 
where we don't have the competition that we need and want.
    In North Dakota--and you're well familiar with your 
neighboring State--Qwest serves 24 exchanges, most of our big 
cities, in fact. They offer DSL service in only 4 of the 24 
exchanges. It's an awful record, in my judgment. Qwest has its 
own problems these days, of course, and it's been involved a 
lot of high-flying activities around the country--and the 
world, for that matter--but they couldn't find the interest to 
provide DSL service in the other 20 exchanges. Four out of 24 
have DSL. The other 20 don't.
    We need to try to march toward more competition, and we 
need to try to find ways to have broader support for universal 
service. You know well what the Commission has been doing in 
these areas. Universal service, unfortunately, for too many 
years, has been almost an afterthought, but it's actually 
critically important for North Dakota, South Dakota, Montana, 
Hawaii, and other parts of the country.
    As you know, the Commission is moving forward quickly on 
redefining wire-line DSL as an information service, which would 
narrow the base for universal service even more. I just think 
we have very, very serious problems. At a recent hearing, I 
asked the FCC witness how often the FCC audits carriers to make 
sure those charges we all have on our telephone bills for 
universal service actually reflect the carriers' costs or are 
actually passed on to the customer. The fact is, very few 
audits go on, if any. The witness didn't know. So, I just think 
you're going to have to be the one that's the voice down there 
that pushes very hard on these issues.
    Let me make a final point, and then I'm going to ask you a 
quick question. I apologize for being late, I was chairing an 
Appropriations Subcommittee markup.
    April 7, 1805, Lewis and Clark got up in the morning, and 
they were in North Dakota all winter--what is now North Dakota. 
They spent the entire winter there after they got through South 
Dakota--what is now South Dakota, I should say. And April 7, 
1805, Captain Lewis had written a letter to President 
Jefferson. And so, on that morning, as they sought to embark 
following that winter stay in what is now North Dakota, they 
wanted to send the letter to President Jefferson and take off 
up the Missouri River and finish their trip. So the way they 
sent a letter on April 7, 1805, was to put four soldiers in a 
little dugout boat and put it down the Missouri River, down the 
St. Louis, down to New Orleans on a boat. They moved it around 
by boat up to the East Coast and finally found its way to 
Thomas Jefferson in the White House. Now, that was a 5-page 
handwritten letter by Captain Lewis.
    Of course, now if you are at that point on the river at the 
Information Center, the Lewis and Clark Center there, you are 
as close to Washington, DC., as the river out here, you're a 
nanosecond away. You're a click away. Things have changed. 
Communications have changed so dramatically, and it's so 
important to rural regions of the country, because we've always 
had a geographical disadvantage. All of a sudden, distance is 
dead. And if distance is dead, then opportunity is born. And if 
opportunity is born, it is enabled only by an FCC that 
understands that opportunity exists with a robust universal-
service program that renders for advanced telecommunications 
services. That is the language we wrote in the bill, and I 
helped write it, so I know the language, that renders it the 
same as universal service and telephone service supported by a 
basic universal service program for advanced telecommunications 
service.
    So thanks for allowing me to say that. Again, I apologize 
for being late. But, Mr. Adelstein, if you can, just describe 
for me, briefly, your views on the universal service situation 
and whether you share our views that this has been a football 
that's been kicked around several different directions by 
several different FCCs over the recent years. What's your 
impression of what's going on there?
    Mr. Adelstein. Senator Dorgan, because of a number of open 
proceedings that are currently pending before the Commission, I 
do not wish to comment on the universal service issues, as they 
relate to these proceedings. Virtually every aspect of 
universal service is up for grabs, so I've got to be careful 
not to mention anything that would prejudge how I would rule on 
any of these open proceedings.
    Senator Dorgan. For God's sake, don't disqualify yourself 
on any of them.
    Mr. Adelstein. Exactly.
    Senator Dorgan. I want you voting on all of them.
    Mr. Adelstein. But I would say, as a general matter, that I 
would see my role, if confirmed to the FCC, as being one of 
implementing the Telecommunications Act that you helped write. 
So I feel like I'm talking to an author of the book about what 
it said, but let me tell you that I've read it and I know what 
it said, and I know what level of commitment this Committee and 
this Congress has placed on universal service. I will say that 
I am not convinced that the Commission over the years has 
placed the same level of priority on those matters that this 
Committee and this Congress have.
    My commitment, therefore, is to fulfill the 
responsibilities of the Commission to implement faithfully the 
provisions of the Act. I recognize the efforts by the farm team 
to put those provisions in there. I recognize the vast effort 
that went into that, and I believe that calls for a 
commensurate effort at the FCC. I will do everything I can to 
ensure that, as the Act requires, specific, predictable, and 
sufficient support mechanisms are available to all areas of the 
country.
    Senator Dorgan. Do you agree that, in recent years, actions 
have been taken by the FCC that have narrowed the base for 
support of universal service, and that, in fact, if we're going 
to have a robust universal-service support of advanced 
services, you have to have a broader base, not a narrower base? 
Would you not agree with that?
    Mr. Adelstein. The courts have ruled that universal service 
is only allowed to use interstate revenues and not intrastate 
revenues, which took a huge amount off the table. It's not 
clear to me that's what the Act said, but that's what the 
courts said, and that's----
    Senator Dorgan. But that ruling was not even appealed, was 
that not the case?
    Mr. Adelstein. It was not appealed.
    Senator Dorgan. I mean, it wasn't exactly an aggressive FCC 
chasing after a decision they wanted here. They got one court 
ruling and said, ``Oops, time is up; we give up.'' I mean, I'm 
sorry to interrupt you, but my point is, yes, a court ruled, 
but the ruling wasn't even appealed. And there are a good many 
lawyers that think that could well have been overturned.
    Mr. Adelstein. It is, in my opinion, an open question as to 
what the Act says on this matter. But, unfortunately, the FCC 
is bound by the court decision, since it did not appeal. I 
would note that the Act requires equitable and non-
discriminatory contributions, and that is the principle that I 
would apply to any issue which, like universal service, is a 
fundamental principle ensconced in the Telecommunications Act.
    Senator Dorgan. Well, Mr. Adelstein, it will be a breath of 
fresh air to have you serve on the Commission. We've had a lot 
of wonderful people in this country's history serve in that 
role, but we have a Commission that is relatively 
inexperienced, as you know, and I'm not going to talk about any 
particular member of the Commission at this point, but a 
relatively inexperienced Commission and also a Commission that 
seems less aggressive in pursuing the things that we wrote in 
the law. And that was to say that universal service support 
shall apply to ``advanced telecommunications services.'' That's 
written in law.
    It is going to be a breath of fresh air to have you there, 
and I wish you well and have high hopes for your service at the 
FCC and am pleased to vote for your nomination.
    Mr. Adelstein. Thank you, Senator Dorgan.
    Senator Inouye. Thank you very much.
    I'm certain you know that the Members of this Committee 
seem rather pleased with your nomination.
    The hearing is adjourned.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Jonathan S. Adelstein

    Question 1. The Communications Act gives the FCC the authority to 
act based on the public interest. The authority provides an FCC 
commissioner with an ability to balance the issues before them based on 
the ``greater good.'' I believe this authority is important and 
necessary in developing communications policy and ensuring that rates, 
competition, quality of service and consumers are protected. What 
importance do you place on the FCC's public interest authority?
    Answer. The Communications Act, as amended, requires the FCC to act 
in accordance with the public interest. As a result, the public 
interest authority is central to the work of the Commission. It is 
referred to over 100 times in the Communications Act. Although it is 
not defined specifically in the statute, it is interpreted through 
years of precedent in FCC rulings and court reactions to those rulings. 
If confirmed, I would use the public interest authority Congress 
conferred upon the Commission to accomplish the many goals articulated 
in the Act. The public interest standard is very important and if 
confirmed as a Commissioner, I would use this authority carefully and 
thoughtfully.
    Question 2. What do you believe are the most important policy 
issues facing the FCC?
    Answer. The FCC faces many important issues. Some of the most 
important that the Commission will have to address in the near future 
include reforming universal service as Congress intended under Section 
254 of the Act; preserving continuation of service in light of the 
potential financial collapse of any major telecommunications carriers; 
encouraging broadband deployment; establishing efficiencies in spectrum 
use in order to address the growing demands for spectrum; and remaining 
faithful to the pro-competitive model established by Congress under the 
Telecommunications Act of 1996.
    Question 3. What personal philosophy do you use to analyze 
communications issues and make policy decisions?
    Answer. First and foremost, appointees to independent regulatory 
agencies, such as FCC Commissioners, implement the law, they do not 
make it. Congress has laid out this Nation's telecommunications policy 
framework in the Communications Act. If confirmed, it would be my job 
to implement that framework to the letter and spirit of the law. I also 
believe that it is important to analyze the entire record of a 
proceeding, ensure that all parties have the opportunity to be heard 
and ensure that all actions are in the public interest as required by 
law.
    Question 4. There have been many mergers and substantial 
consolidation in the marketplace. How can the FCC ensure that rates, 
service, innovation, and competition are not. undermined by 
consolidation?
    Answer. There are two general areas where the FCC can address 
concerns related to consolidation. First, the FCC is required by 
statute to use its public interest authority to ensure that rates, 
service, innovation, and competition are not undermined. Second, when 
the FCC reviews mergers, it needs to evaluate the matter based on 
whether any proposed merger is in the public interest on a case-by-case 
basis.
    Question 5. Congress passed the 1996 Telecommunications Act 
outlining a structure to introduce competition into the local markets. 
Under the Act, the FCC is required to oversee a section 271 process. 
From your perspective, how important is it for our local markets to be 
open to competition?
    Answer. It is not only important that local markets are open to 
competition, but the Act requires that local markets be open. As I 
indicated in my testimony, I fully recognize the pro-competitive 
requirements of the Act and if confirmed, I will do my very best to 
enforce these requirements.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gordon Smith to 
                         Jonathan S. Adelstein

    Question. Senator Feingold recently introduced a bill that request 
the Commission to investigate the impact of recent unprecedented 
increases in radio ownership consolidation on citizens and musicians, 
including the relationship between radio stations and independent 
promoters that could influence playlists. It is important that the 
Commission review the current practices in radio to assure that the 
public airwaves continue to serve the public interest. What is your 
opinion on these practices? Can you assure us that, if confirmed, you 
will give this important issue the consideration it deserves at the 
Commission?
    Answer. The short answer is yes. As you know, the Commission is in 
the midst of a rulemaking proceeding considering how to address 
consolidation in the radio industry in light of the limits established 
in the Telecommunications Act of 1996. This proceeding is underway. I 
can assure you that if confirmed I will give this issue important 
consideration and look closely at the implementation of the 1996 Act in 
this area, and will work to ensure that the Commission's rules are 
consistent with the goals of the Act and with the Commission's 
obligation to review each license transfer in the public interest. In 
addition, the FCC has an obligation to review the practices of its 
license holders, including radio stations. They, like all license 
holders, operate in the public interest: and are required to conduct 
their business in accordance with this standard.
  

</pre></body></html>
